<html>
<title> - COMBATING TRAFFICKING IN PERSONS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                    COMBATING TRAFFICKING IN PERSONS

=======================================================================







                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       DOMESTIC AND INTERNATIONAL
                 MONETARY POLICY, TRADE AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2005

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 109-22









                 U.S. GOVERNMENT PRINTING OFFICE

23-248                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001














                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    MICHAEL G. OXLEY, Ohio, Chairman

JAMES A. LEACH, Iowa                 BARNEY FRANK, Massachusetts
RICHARD H. BAKER, Louisiana          PAUL E. KANJORSKI, Pennsylvania
DEBORAH PRYCE, Ohio                  MAXINE WATERS, California
SPENCER BACHUS, Alabama              CAROLYN B. MALONEY, New York
MICHAEL N. CASTLE, Delaware          LUIS V. GUTIERREZ, Illinois
PETER T. KING, New York              NYDIA M. VELAZQUEZ, New York
EDWARD R. ROYCE, California          MELVIN L. WATT, North Carolina
FRANK D. LUCAS, Oklahoma             GARY L. ACKERMAN, New York
ROBERT W. NEY, Ohio                  DARLENE HOOLEY, Oregon
SUE W. KELLY, New York, Vice Chair   JULIA CARSON, Indiana
RON PAUL, Texas                      BRAD SHERMAN, California
PAUL E. GILLMOR, Ohio                GREGORY W. MEEKS, New York
JIM RYUN, Kansas                     BARBARA LEE, California
STEVEN C. LaTOURETTE, Ohio           DENNIS MOORE, Kansas
DONALD A. MANZULLO, Illinois         MICHAEL E. CAPUANO, Massachusetts
WALTER B. JONES, Jr., North          HAROLD E. FORD, Jr., Tennessee
    Carolina                         RUBEN HINOJOSA, Texas
JUDY BIGGERT, Illinois               JOSEPH CROWLEY, New York
CHRISTOPHER SHAYS, Connecticut       WM. LACY CLAY, Missouri
VITO FOSSELLA, New York              STEVE ISRAEL, New York
GARY G. MILLER, California           CAROLYN McCARTHY, New York
PATRICK J. TIBERI, Ohio              JOE BACA, California
MARK R. KENNEDY, Minnesota           JIM MATHESON, Utah
TOM FEENEY, Florida                  STEPHEN F. LYNCH, Massachusetts
JEB HENSARLING, Texas                BRAD MILLER, North Carolina
SCOTT GARRETT, New Jersey            DAVID SCOTT, Georgia
GINNY BROWN-WAITE, Florida           ARTUR DAVIS, Alabama
J. GRESHAM BARRETT, South Carolina   AL GREEN, Texas
KATHERINE HARRIS, Florida            EMANUEL CLEAVER, Missouri
RICK RENZI, Arizona                  MELISSA L. BEAN, Illinois
JIM GERLACH, Pennsylvania            DEBBIE WASSERMAN SCHULTZ, Florida
STEVAN PEARCE, New Mexico            GWEN MOORE, Wisconsin,
RANDY NEUGEBAUER, Texas               
TOM PRICE, Georgia                   BERNARD SANDERS, Vermont
MICHAEL G. FITZPATRICK, 
    Pennsylvania
GEOFF DAVIS, Kentucky
PATRICK T. McHENRY, North Carolina

                 Robert U. Foster, III, Staff Director
 Subcommittee on Domestic and International Monetary Policy, Trade and 
                               Technology

                       DEBORAH PRYCE, Ohio, Chair

JUDY BIGGERT, Illinois, Vice Chair   CAROLYN B. MALONEY, New York
JAMES A. LEACH, Iowa                 BERNARD SANDERS, Vermont
MICHAEL N. CASTLE, Delaware          MELVIN L. WATT, North Carolina
FRANK D. LUCAS, Oklahoma             MAXINE WATERS, California
RON PAUL, Texas                      BARBARA LEE, California
STEVEN C. LaTOURETTE, Ohio           PAUL E. KANJORSKI, Pennsylvania
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
MARK R. KENNEDY, Minnesota           LUIS V. GUTIERREZ, Illinois
KATHERINE HARRIS, Florida            MELISSA L. BEAN, Illinois
JIM GERLACH, Pennsylvania            DEBBIE WASSERMAN SCHULTZ, Florida
RANDY NEUGEBAUER, Texas              GWEN MOORE, Wisconsin
TOM PRICE, Georgia                   JOSEPH CROWLEY, New York
PATRICK T. McHENRY, North Carolina   BARNEY FRANK, Massachusetts
MICHAEL G. OXLEY, Ohio



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 28, 2005...............................................     1
Appendix:
    April 28, 2005...............................................    35

                               WITNESSES
                        Thursday, April 28, 2005

Frundt, Tina, Polaris Project....................................    23
Hotaling, Norma, Executive Director, SAGE........................    20
Miller, Hon. John, Director, Office to Monitor and Combat 
  Trafficking in Persons, U.S. Department of State...............     6

                                APPENDIX

Prepared statements:
    Oxley, Hon. Michael G........................................    36
    Wasserman Schultz, Hon. Debbie...............................    38
    Frundt, Tina.................................................    41
    Hotaling, Norma..............................................    48
    Miller, Hon. John............................................    58

















                    COMBATING TRAFFICKING IN PERSONS

                              ----------                              


                        Thursday, April 28, 2005

             U.S. House of Representatives,
         Subcommittee on Domestic and International
              Monetary Policy, Trade and Technology
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2128, Rayburn House Office Building, Hon. Deborah Pryce 
[chairman of the subcommittee] presiding.
    Present: Representatives Pryce, Biggert, Leach, Castle, 
Kennedy, Harris, Gerlach, Neugebauer, Price, McHenry, Maloney, 
Lee, Sherman, and Wasserman Schultz.
    Chairman Pryce. [Presiding.] This hearing of the 
Subcommittee on Domestic and International Monetary Policy, 
Trade and Technology will now come to order.
    Good morning.
    I would like to begin by welcoming my distinguished 
colleagues and our expert panelists to this hearing this 
morning.
    The topic before us today in the subcommittee is wrought 
with emotion. It yanks at our heartstrings because it is about 
real people. More often or not, it is about young people, girls 
and boys. It is about innocent children, women and men who are 
stripped of their dignity and robbed of their human rights. It 
is slavery. Today, in the 21st century, it is trafficking in 
persons.
    Trafficking in persons, or TIP, as the State Department 
calls it, is a term used in U.S. law and around the world. The 
term encompasses slave trading and modern-day slavery in all 
its forms.
    It takes only a brief history lesson to jog our memories 
that President Abraham Lincoln's Emancipation Proclamation of 
1863 commenced the effort to end slavery in this country. Two 
years later, by way of the 13th Amendment to the Constitution, 
a ban on slavery and involuntary servitude was enacted in the 
United States.
    We should all be shocked and horrified that 140 years later 
slavery is still rampant in America.
    As I have been learning more and more about the reality 
that we call trafficking in persons, I found myself sharing 
what I learned with friends and family and colleagues. To those 
of you in this room who have been working on this issue for a 
long time, I am sure you have shared the same experience and 
the reaction of your friends.
    People quite simply have no idea that slavery still exists. 
They have no idea that somewhere upwards to 17,500 people are 
trafficked across U.S. borders every year. They are astounded 
to learn that between 600,000 and 700,000 children, women and 
men are trafficked across international borders every year.
    But the numbers are not enough. They do not mean a thing 
until you give each number a name, a face, an age, an identity. 
So let me tell you about one.
    Her name is Aurica. She is 19 years old from the country of 
Moldova, the poorest country in Europe, between Ukraine and 
Romania.
    I met Aurica when I traveled overseas earlier this month on 
an investigative mission to address trafficking in persons in 
Europe. Aurica had just arrived at a rehabilitation center run 
by a nongovernmental organization in Moldova's capital.
    Like any typical young woman, Aurica just wanted to make a 
life for herself. She wanted to get a job, provide for herself 
and one day have a family of her own.
    But Moldova's lack of natural resources and dismal economy 
is making it terribly difficult for young people to carve out a 
meaningful or even a hopeful future there. It also makes it a 
breeding ground for traffickers.
    Aurica became friendly with a young man who told her about 
an exciting job opportunity in Turkey. Her spirits lifted when 
he told her about all the money that she could make. She might 
even earn enough to send home to her poor parents in Moldova.
    The alternative, finding a job in Moldova that paid a 
decent wage, was a nonstarter. It was an impossibility in this 
ambitious and realistic young girl's eyes.
    Upon her arrival in Istanbul, however, Aurica was 
immediately not given a job; she was sold into a brothel.
    After coming to the devastating realization that she would 
be forced to stay in the brothel with other young women who had 
been held there as sex slaves, she attempted to escape by 
jumping from the sixth story of the building. Sadly, she 
incurred significant injuries, a broken spine. She spent 4 
months in a Turkish hospital without adequate medical care, 
finally to be returned to Moldova where we met her.
    She is one girl, but she is one of thousands and thousands.
    In an ideal world, we would be out rescuing every last 
victim we could. But we do not live in an ideal world, and we 
must do what we can. And we did what we could for Aurica.
    Congresswoman Kay Granger lined up a doctor in Dallas, 
Texas, that would give her free surgery. I lined up MedFlight 
from Columbus, Ohio, that would give her free transportation. 
And just yesterday she endured 12 hours of surgery, and they 
believe that she will be able to walk.
    We did what we could for Aurica, but there are thousands 
like her. Each and every day, nongovernmental organizations 
across the world are doing what they can to help innocent 
victims of this horrendous practice.
    Governments across the world are on notice that, thanks to 
the annual TIP report that Ambassador Miller's office puts out 
every year, we are watching. And the U.S. is lending support 
across the globe to help provide other countries with tools to 
combat trafficking inside of their borders.
    The scale of this issue is almost incalculable. But we have 
to start somewhere, and we have.
    Congress, under the strong leadership of Frank Wolf of 
Virginia and Chris Smith of New Jersey, among many others, has 
enacted critical legislation such as the Trafficking Victims 
Protection Act, and the Protect Act.
    Congresswoman Maloney, my colleague and good friend, and I 
will be introducing legislation later this week that focuses on 
ending--well, we will be introducing it today, as a matter of 
fact--focusing on ending the demand for sex trafficking here in 
the United States of America. It still exists here.
    More needs to be done. We must continue to build awareness 
about this crisis and identify new and improved ways to combat 
it. It is a multi-dimensional, very complex and ever-changing 
issue. That is why we have to continue the fight.
    I would like to close by quoting what I believe to be an 
incredibly powerful statement articulated by President Bush 
before the United Nations General Assembly in September of 
2003. The President said: ``There is a special evil in the 
abuse and exploitation of the most innocent and vulnerable. The 
victims of sex trade see little of life before they see the 
very worst of life--an underground of brutality and lonely 
fear.''
    I commend the President for his commitment to unleashing 
the forces that he has to fight this special evil. Only by 
building awareness that this abuse exists, enacting and 
implementing sound policies to combat the abuse, and ensuring 
the availability of support for victims can we truly invoke 
real change in communities across this country and in 
communities throughout the world.
    Thank you, again, to all of our panelists for joining us 
this morning. I look forward to hearing your assessment of the 
current dynamics surrounding trafficking in persons both in the 
U.S. and abroad.
    Without objection, all Members' opening statements can be 
made part of the record.
    And I now would like to recognize my good friend, the 
gentlelady from New York and Ranking Member of this 
subcommittee, Congresswoman Maloney, for her opening statement.
    Mrs. Maloney. I thank Chairwoman Pryce.
    And I congratulate her on chairing this committee and for 
holding this important hearing. I think it is very meaningful 
that her first hearing is on domestic and international anti-
trafficking efforts and especially what our country can do to 
combat trafficking. This is a topic that we both personally 
care about deeply and one that I have worked on for many years 
in Congress.
    A very special thank you to Ambassador Miller for your 
efforts and your passion and your dedication for being here 
today with your testimony and for all that you have done so 
far. You have truly already made a tremendous difference in the 
international trafficking in the world. I have seen it for many 
years. This is the first time I have seen real strides and 
differences take place, and a great deal of it is due to your 
leadership.
    I also would like to thank our witnesses--Norma Hotaling 
and Tina Frundt. They are in the trenches, and they work every 
day to combat trafficking at the most direct level, helping the 
individual women and girl victims.
    I must say a very, very special word to Tina. I was not 
aware that it was so prevalent in our own country until she 
told me about it. I think it takes a great deal of courage to 
speak out about your personal tragedy and to share it with 
others. But it is important for policy-makers and other people 
to know about it.
    She is a brave woman who survived years of forced 
prostitution at the hands of her own foster mother and was 
later victimized by a pimp. She not only survived but went on 
to become a fierce advocate for others who are trapped in the 
same life of violence.
    At present, there is very little funding for survivors like 
Tina and virtually no recognition or support. Instead of 
helping, we prosecute, and then we allow the real criminals to 
go free.
    Tina says that she often goes into court to help victimized 
young women and that pimps are literally waiting outside the 
courtroom to pick them up. Yet, many judges tell me they have 
never had a pimp or a john brought into their courtroom; it 
always is the victimized woman.
    And that is why I am so very proud to join with 
Representative Pryce to end this unconscionable practice. The 
bill that we are introducing today will provide $15 million a 
year for 5 years to jurisdictions that prosecute the 
perpetrators of this terrible crime.
    This bill focuses on prevention. This bill is designed to 
starve the $5 billion a year beast that the illegal sex 
industry has become in our country. It is an industry that 
profits from the victimization of individuals who cannot defend 
themselves.
    One-third of this money, if it passes, will go toward 
helping victims of sex trafficking become survivors, like Tina, 
so that they can become part of the effort of helping others. 
The rest will be awarded to fight the real criminals--the 
pimps, the johns, the brothel owners--who currently function 
without fear in our own country.
    Sweden has aggressively pursued and prosecuted pimps and 
brothel owners since 1999. And according to one study, just 2 
years after beginning the program, they reduced the number of 
women working as prostitutes by 50 percent and the number of 
men buying sex by 75 percent.
    For too long in our country, we have focused on blaming 
those who are kidnapped, coerced or tricked into working as 
prostitutes and in brothels against their will. Now we are 
taking on the perpetrators of this terrible crime rather than 
the victims. It is a major policy shift and a major bill.
    This problem affects every city in our country. And it is 
happening now even in my own district in New York which I 
represent, and I am astonished and horrified to learn this. I 
researched it preparing for this hearing, and it is so 
widespread in our country.
    Each year, up to 20,000 men, women and children from all 
over the world are brought to the United States for the sole 
purpose of being bought and sold by Americans, and we are going 
to do something about it.
    I just want to conclude by saying that it is a lot easier 
to look at sex trafficking in other countries rather than our 
own. In Congress, we have looked to cut off funding for foreign 
nations that tolerate or support the sex trafficking industry. 
But only now have we turned to combat the problem in our own 
backyard by helping victims and providing local jurisdictions 
incentives to target and prosecute the users of commercial sex 
acts.
    We will make significant strides in ending this horrendous 
crime in our own country.
    I became interested in this issue because of a firm in the 
district that I represent called the Big Apple Tours. And this 
firm would literally advertise in brochures and on the Internet 
to go on their trips to Indonesia and to Thailand, and they 
would advertise that if you went on their trips, they would be 
provided with young children-virgins and ``please describe the 
age that you would like"--just disgusting.
    I went to the D.A. and they said they could not close them 
down because they had to prove intent and it was very difficult 
to do. But with the work of Deborah Pryce and others, we have 
really closed down a lot of these sex trafficking firms and 
made the laws tougher.
    This is a continuing effort, and I am proud to join with 
this effort, and I thank all that have been part of it.
    I yield back.
    Chairman Pryce. Thank you, Ms. Maloney. I appreciate your 
cooperation and your assistance in the drafting and putting 
together this bill and this hearing today.
    At this time it is my very special honor to introduce an 
extraordinary and passionate leader in the effort to combat 
trafficking in persons, Ambassador John Miller.
    Ambassador Miller directs the State Department's Office to 
Monitor and Combat Trafficking in Persons. The Trafficking in 
Persons Office coordinates U.S. government activities in the 
global fight against modern-day slavery, including forced labor 
and sexual exploitation.
    I have had the privilege to work with Ambassador Miller and 
his staff for some time now and have seen firsthand their 
incredible dedication on behalf of this president and to 
ensuring that the U.S. is a world leader in efforts to combat 
trafficking in persons.
    Ambassador Miller, as a credit to you, on our journeys in 
Moldova and Albania and other places, our country and our 
president were given great accolades for their leadership. And 
if you have not heard that, you should hear it firsthand.
    He is no stranger to Capitol Hill. He served in Congress 
for 8 years representing the state of Washington. While in 
Congress, Mr. Miller held a seat on the House Committee on 
International Relations and was a member of the Congressional 
Human Rights Caucus.
    We are very grateful to have him here this morning. His 
unwavering commitment to ending modern-day slavery is clear, 
and his energetic spirit is contagious.
    Ambassador Miller, thank you so much for joining us. 
Without objection, your written statement can be made part of 
the record.
    You are now recognized.

STATEMENT OF HON. JOHN MILLER, DIRECTOR, OFFICE TO MONITOR AND 
    COMBAT TRAFFICKING IN PERSONS, U.S. DEPARTMENT OF STATE

    Mr. Miller. Well, thank you, Madam Chairman. I will submit 
a statement for the record.
    I have to tell you that I feel very honored to come before 
this committee to speak about the United States' role in trying 
to abolish slavery in the 21st century.
    Madam Chairman, your CODEL, your trip to Greece, Moldova, 
Albania and Italy, contributed significantly to our efforts in 
this area. As far as I know, I think it was the first CODEL 
exclusively devoted to the trafficking-in-persons issue. And I 
commend you.
    And, Congresswoman Maloney, your speech, which I heard--was 
it a week or 2 weeks ago?--at the Congressional Women's Caucus 
was one of the most moving and eloquent expositions on the 
issue of slavery in the 21st century.
    So the leadership that you all are giving is most welcome.
    Now, you are going to listen to me describe the U.S. 
efforts, but you also have an all-star panel following me. And 
I know that Tina from the Polaris Project is testifying. The 
Polaris Project has done some great work, not only at home but 
abroad. We worked with them in Japan, for example.
    You also have Norma Hotaling, the director of SAGE, who 
really, among other things, started the Johns' school movement 
in this country. It is one of the first education efforts to 
change society and to change the mores of the perpetrators 
here. I had the privilege of visiting her school just a couple 
of weeks ago in San Francisco.
    Well, when we start talking about this, as the Chairman 
said, it is easy to get into figures and reports. But, of 
course, all of us here have met victims. Both of you referred 
to victims that you have met. And I have met so many abroad.
    So when I think of these figures, the 800,000 across 
international borders every year and all these other figures, I 
do think of people like Khan and Lord that were put into 
factories and had chemicals dumped on them, and I think of 
Katya, who was trafficked across Europe from the Czech Republic 
to the Netherlands and forced to work in a brothel in the 
Amsterdam red-light district--and hundreds of more of these 
cases.
    And as you said, Congresswoman, this challenge extends to 
every country in the world, including the United States of 
America.
    The categories are vast--sex slavery, domestic servitude 
slavery, factory slavery, farm slavery, child camel jockey 
slavery. And when you talk with victims in these categories, 
you cannot do anything else but become a 21st century 
abolitionist.
    I think President Bush did set the tone for our efforts 
when almost a year-and-a-half ago he went to the U.N. and 
devoted over 20 percent of his speech to how nations in the 
world must wake up and join in fighting this scourge.
    Let us begin with our efforts in the U.S. government. I 
will talk briefly about my office, which was set up by you, by 
Congress, in the Trafficking Victims Protection Act of 2000, 
reauthorized in 2003.
    What are some of the things we do?
    We have the annual report that you referred to that 
evaluates countries throughout the world.
    There is another report that we participate in, that 
Justice takes the lead, evaluating U.S. efforts in this area.
    And I can say--I mean, this is true of this whole area. I 
get a little concerned about talking about efforts, because it 
implies that, you know, great progress has been made and the 
problem is on its way to solution. And this is not true. There 
is so much more to do.
    However, steps are starting to be taken. And we see with 
this report, whether it is due to countries awakening on the 
issue, or whether they want a better rating in the report, or 
whether they have a fear of the sanctions that may come from 
being rated low, we see tremendous efforts that were not there 
before--we see 3,000 convictions worldwide of traffickers last 
year; we see almost 50 countries in the last 2 years passing 
comprehensive anti-trafficking-in-persons laws.
    Then we have programs abroad, and they are not just State. 
Department of Labor, USAID, and now we are getting Justice and 
HHS involved.
    The last 4 years, there has been an increase every year. It 
is now getting up between $80 million and $90 million a year. 
It is a modest amount, given the challenge, but of course it is 
probably five, 10 times more than any other country is spending 
on this issue abroad.
    Lastly, we are trying in our office to put the spotlight on 
this issue--not just the report, not just our prosecution 
prevention and protection programs--but to get the news media 
to start covering this issue around the world. We are starting 
to see that. And when the awareness increases, then good things 
happen.
    We also have another role in our office. We chair the 
senior policy operating group that you set up. First you set up 
a presidential task force, the Cabinet officers. They meet once 
a year. But then you set up a senior policy operating group to 
do the day-to-day coordination work. All the agencies are 
represented. I chair this group. And through this group, we are 
doing a lot of interesting things.
    The President asks that every agency come up with its own 
strategic plan for how they were going to fight trafficking in 
persons, and that has now been done.
    The group is trying to coordinate the grants so that we do 
not have duplications, so that we have a coordinated approach.
    We are trying to put more emphasis on child-sex tourism, 
which the President singled out at the U.N.
    We are trying to put more emphasis on demand, which you 
both referred to.
    I think at the beginning when we started looking at this 
issue, we said, ``Well, where are these trafficking victims, 
slaves, coming from?'' And we looked to the less-developed 
countries in the world. But demand exists all over the world, 
in some of the wealthiest countries of the world--Western 
Europe, Japan, the United States.
    And we are trying to see how we can do more to address 
demand, whether it is through projects such as Ms. Hotaling's 
or other projects.
    Now, one of the reasons I am really pleased that you are 
holding this hearing is that you can bring new energy to 
looking at the financial aspects of this crime.
    We know human trafficking fuels organized crime. We know 
organized crime flourishes because of this. We know it can 
weaken governments. We know that people suffer.
    According to the Congressional Research Service, human 
trafficking is now considered the third largest source of 
profits for organized crime worldwide, after the drug trade and 
the arms trade.
    Our government estimates $9.5 billion in annual revenue for 
organized crime. UNODC, the U.N. organization, concludes that 
trafficking, the globalization of trafficking, has allowed 
crime groups formerly active in specific routes or regions to 
expand the geographic scope of their activities to explore new 
markets.
    So here we have this lucrative criminal industry, high 
profit margin, low risk. A trafficker receives a few hundred to 
thousands of dollars from the work of a trafficked child 
laborer. A brothel owner may obtain profits of a few thousand 
to tens of thousands of dollars for each trafficked woman 
forced into prostitution.
    And they benefit because the recruiting, the 
transportation, the documentation costs are low, and the risk 
of prosecution is not as low as it was, but it is still low.
    In many of the poorer countries that are the targets, the 
money that could be going to productive enterprises is going to 
these crime units.
    So I really believe we need more research to get a better 
understanding of how traffickers and organized crime groups are 
using the modern-day slave trade to launder money and finance 
other criminal activities. And your subcommittee can play a 
vital role.
    It has been 5 years since we issued the first report, long 
before many of us here got interested in this issue. So many 
countries did not recognize the issue.
    In that 5 years, the U.S. has increased its efforts. 
Domestically we now have Department of Homeland Security taking 
an aggressive approach around the world arresting, processing, 
detaining, removing traffickers from the U.S.
    Department of Health and Human Services started this year a 
public awareness campaign in 10 pilot cities--it is going to be 
increased to 20--and the first national 24-hour hotline.
    If you look at the Justice Department over the last several 
years, there has been a tripling of prosecutions.
    The Department of Defense, the first defense department 
that I am aware of in the world, possibly excepting Sweden that 
issued a zero tolerance policy on trafficking in persons for 
its members and now is following up with education and training 
for its members.
    And there are other agencies involved.
    We cannot underestimate the importance of this work. We 
have a threat to human rights, we have a threat to public 
health, we have a threat to public safety. It is a crime that 
has troubling implications, not just to Kahn, to Lord, to 
Katya--to Aurica, that you talked about--to Tina. It has 
implications for us all.
    I am happy to take your questions.
    [The prepared statement of John Miller can be found on page 
58 in the appendix.]
    Chairman Pryce. Thank you, Mr. Ambassador. Your enthusiasm 
is contagious. We have all learned a lot from you. Thank you 
for your efforts.
    This is the first of a series of hearings on this issue 
that I would like the subcommittee to hold. And you have 
suggested that we pursue the laundering aspect and how this may 
fuel organized crime.
    Do you have any other suggestions? I thought that perhaps 
the tourism aspect of this is another one. Are there other 
things that come to mind that you might suggest for us to shed 
some spotlight on?
    Through our travel and through these hearings we can 
continue to assist you in putting the light of day on this 
increasingly horrid subject. Any suggestions you have, we would 
appreciate.
    Mr. Miller. Well, what you have already done in talking 
with foreign governments, in talking to local governments and 
talking to the news media is a tremendous help.
    I mentioned the financial aspects because our office does 
not believe there has been enough research done in this area, 
the actual links. And we get asked a lot of questions about 
this money--where does it go, and what groups end up with it, 
and what happens to the billions, and does it fund other 
organized crime units, and does it lead to terrorist groups, 
and all this.
    And I have not seen hard research and evidence to answer 
these questions. I just have not seen it.
    So to me, this would make a tremendous contribution, and it 
obviously fits the mandate of your committee.
    Child-sex tourism has tremendous financial implications.
    And I think it was either you or Congresswoman Maloney who 
referred to the sex-tour operators. You can get on the 
Internet, still today, as the congresswoman said, since the 
passage of the Child PROTECT Act, where we can throw people in 
jail for 30 years that are caught abusing children abroad and 
sent back, maybe there has been a lessening.
    But you can still get on the Internet today--there are 
groups like Equality Now that monitor this--you can get on the 
Internet today and find slave-auction sites, sex-tour sites 
that are very clearly marketed to those Americans who will go 
on trips to abuse children.
    It is a very complicated legal issue. Our Justice 
Department has worked on this, various state attorneys general 
offices have worked on it. There has not been a dramatic 
success.
    There may be an area to explore here in terms of the 
financial links of these child-sex-tourism tour operators. To 
what extent, where do they get their money from, to what extent 
do they take advantage of credit card and banking networks? Any 
work in that area I think would be most welcome.
    If I come up with some other suggestions, I will get back 
to you.
    Chairman Pryce. Well, I appreciate that.
    And we will continue to work very closely with your office, 
because you certainly are a resource that we cannot do without, 
and your staff has been wonderful to us. So thank you so much.
    At this time, I will yield back my time and recognize my 
Ranking Member, Congresswoman Maloney, for questions.
    Mrs. Maloney. In your work internationally, are there 
certain countries that are particularly successful? I gave the 
example of Sweden. I read a report where they were able to cut 
the activity and really proceed with prevention.
    If you have seen some case studies in other countries that 
have been able to prevent sex trafficking or to control it or 
to convict it, could you share them with us?
    Mr. Miller. Sure.
    I think you started with a good example. We are looking 
with great interest and sympathy at the Swedish experiment, 
where, as you said, they have decriminalized the conduct of the 
women engaged in prostitution and have criminalized the conduct 
not only of the brothel owner, the trafficker and the pimp, but 
the sex buyer. We are looking at that with interest.
    We have cooperated with Sweden, the two of us, our 
countries, in opposing legalization of prostitution abroad and 
in international forums.
    Another country that is taking some interesting steps is 
Korea. And this has just started.
    Korea has also started to prosecute, as Sweden has. Korea 
prosecutes the women as well as the men. They have not 
decriminalized. But consistent with the purpose of your bill, 
for the first time they are prosecuting the men as well as the 
women, which is what your bill is trying to get at. This just 
started this past year, so it is too early to see what happens.
    We are working with Korea, Norma Hotaling of SAGE is 
working with Korea, to try to see if we can help them set up 
some education programs so that the men who are arrested get 
some special education on how prostitution contributes to the 
phenomenon of trafficking, how they are likely to be 
interacting with trafficking victims in demeaning women.
    So Korea is interesting.
    I will just take another example: Gabon, in Africa. Gabon 
is strapped for resources but has shown tremendous interest in 
doing things that are low-cost--working with groups, taking 
ideas, going into the villages.
    There is another example. I like to cite it because you do 
not have to be a rich country to do a lot of things. It helps 
to have resources, do not get me wrong.
    So those are a few examples.
    Mrs. Maloney. Other studies that I read showed that in the 
countries that have gone to the steps of legalizing 
prostitution that trafficking has increased and the oppression 
of women has increased.
    Now, this was a very interesting statistic to me, because 
every now and then I have someone who comes to me and says, 
``One way we could alleviate the problem is to make it legal.'' 
The studies that I read, internationally, last night showed 
that making it legal increased the problem and increased 
trafficking. Was that your experience, too, and do you have any 
concrete examples?
    Mr. Miller. No, that is our experience. I think trafficking 
can increase when it is illegal and tolerated, and it certainly 
can increase and has increased when it is legal.
    What happens--and we have seen numerous examples of this--
it is legalized, but the illegal sector does not go away. 
Organized crime is so involved in it. The illegal sector just 
expands.
    The legal sector serves as somewhat of a front. And we have 
looked at countries from the Netherlands to Australia to New 
Zealand--Australia, it is just legalized in some provinces--and 
the studies show no decrease in the number of trafficking 
victims. What has happened is, you create magnets which draw 
more trafficking victims. So it does not seem to work.
    The idea of regulating has some appeal to people. I think, 
Congresswoman Maloney, of the trans-Atlantic slave trade a few 
centuries ago when I hear that argument. Because at that time 
there were people that said, ``We can control this by having 
better ventilation on the slave ships, providing doctors on the 
slave ships, better rations.''
    There is nothing wrong with that. I mean, who would be 
opposed to it? Those are good things. But that is not 
abolishing slavery. And it did not lead to a decrease in the 
Atlantic slave trade, and it did not lead to the abolition of 
slavery.
    Mrs. Maloney. My time has expired.
    Chairman Pryce. Your time has expired, thank you.
    I would like to recognize the Vice Chairman of the 
subcommittee, Judy Biggert, for questions.
    Mrs. Biggert. Thank you very much, Madam Chairman. I am 
delighted to be here at your opening hearing of the 109th 
Congress for this subcommittee. Congratulations.
    Ambassador Miller, you talked about the various departments 
or agencies of the federal government--the Department of Labor, 
obviously the State Department, Homeland Security--that are all 
involved in this issue. But you did not mention the Treasury. 
What is their part in working with you?
    Mr. Miller. I think Treasury has gotten involved in our 
process when countries are in danger of falling on Tier 3. And 
Treasury is concerned that this may lead to their having to 
oppose, under the law, International Monetary Fund or World 
Bank assistance for various projects.
    I think this subcommittee--there is an issue to explore, 
how to get the Treasury Department involved as part of this 
21st century abolitionist movement. I think you will find that 
they are certainly willing to listen to ideas.
    I know the President would like to find ways--and maybe 
there are ways that we have not explored, that I have not 
thought of and should have thought of--for the Treasury 
Department to get more involved in this.
    Mrs. Biggert. You indicated that the departments have 
strategic plans, so I would assume that that is probably not 
true with the Treasury. Since we deal with that in this 
committee, this would be another committee that we would want 
to focus on.
    Mr. Miller. I am going to get back to you on that. I know 
all the agencies that I referred to have strategic plans. Let 
me get back to you on whether Treasury has such a plan, and if 
it does not, what it could do, and if does, what it includes. I 
apologize for not knowing the answer to that question.
    Mrs. Biggert. Thank you.
    Then regarding the coordination of the TIPS-related aid, 
does the interagency process focus only on coordinating 
bilateral aid? Or does it encompass multilateral aid to 
international organizations and development banks?
    Mr. Miller. Both, and I should have mentioned that.
    Yes, there is bilateral aid to other governments; yes, 
there is aid through NGOs, U.S. NGOs, the foreign NGOs--there 
is also aid through international and multilateral 
organizations. Now, a lot of their aid, in turn, goes through 
NGOs--but UNICEF, International Organization of Migration, to 
cite two examples of international organizations that are 
heavily involved in this and that the U.S. government has given 
a lot of support to.
    Mrs. Biggert. And then you suggested that a name-and-shame 
campaign through a publication of the annual TIPs report may be 
at least as effective as sanctions as a means of encouraging 
government action. Is this a correct interpretation of your 
testimony?
    Mr. Miller. Well, I think it all has an effect. I think our 
diplomacy, our engagement, has an effect. I think the publicity 
for countries that are doing well and the publicity for 
countries are doing badly has an effect.
    And I think that the threat that a country at the lowest 
rating, Tier 3, potentially, if they do not shape up in the 3 
months after the report, could face sanctions--I think that has 
an effect, and I can document--I will give you why I say this.
    If this did not have an effect, why, in the 2 months before 
the report, do we find nations stepping up their efforts? I 
mean, it is incredible. I have ambassadors calling on me--our 
office, that cannot find evidence of things being done, 
suddenly is deluged with evidence of things being done.
    And, then, on the sanctions part, after the report comes 
out--well, just to give two examples.
    It was very notable a couple of years ago. We had two 
allies, Greece and Turkey, listed in Tier 3. And in the 3 
months after the report came out, before the President had to 
make a decision on sanctions, they, and other countries, did 
remarkable things: arrests, prosecutions increased, shelters 
were set up, referral systems for getting victims to NGOs were 
set up. It was truly remarkable. And they were lifted off Tier 
3.
    So these are all examples of how I think these effects take 
place, although I cannot scientifically measure it in each 
case.
    Mrs. Biggert. Thank you. My time has expired. But thank you 
very much for your spirited testimony and your continued 
passion in this field.
    Thank you.
    Chairman Pryce. The Chair now recognizes Patrick McHenry.
    Mr. McHenry. Thank you. Thank you, Madam Chairman.
    Ambassador Miller, thank you so much for being here today. 
I certainly appreciate your testimony.
    Can you talk about maybe the logistics of this, I mean, in 
terms of a national security risk? When you are trafficking 
people, for whatever purpose, I think it goes, at its heart, 
could bleed over into national security issues. And so, could 
you speak maybe to the logistics?
    Mr. Miller. Well, if you are trafficking people across 
borders, whether you are doing it ``legally or illegally,'' 
obviously it shows that either there are some holes or there is 
some corruption or there is not as efficient approach as there 
should be.
    When you traffic a victim from one country to another and 
he is held in slavery, and this activity continues and he is 
held several years, and the police do not do anything, either 
it is--it might be a lack of knowledge, or it might be 
inefficiency, or it might be corruption.
    In many countries, if you have--all of you have wrestled 
with this; you are more knowledgeable on this than I am--if you 
have a corrupt or inefficient police, you have not only got a 
problem in law enforcement, it does affect national security.
    I will give you an example of a country--I do not like to 
do this, but I will.
    There is a country, Cambodia, in Southeast Asia, where we 
have seen evidence that the traffickers are apparently so 
powerful that the government, in one notorious example, not 
only released suspects that were arrested by a U.S.-trained 
anti-trafficking unit, but then when the traffickers were 
released, the government did nothing when the traffickers then 
went to where the 80 victims, potential victims, were being 
held and grabbed them.
    Now, if this goes on in a country, what sort of stability 
or security are you going to have?
    Mr. McHenry. Well, an additional question--I realize that 
trafficking comes from countries that have been adversely 
affected by events such as the tsunami or war. But also 
totalitarian regimes are notorious for encouraging this if not, 
at the very least, not discouraging it.
    And just right off the tip of Florida, we have one of the 
worst abusers of this: Cuba. Can you speak to the Cuba 
problem----
    Mr. Miller. Yes.
    Mr. McHenry.--and what we can do in terms of taking it on 
as someone that is very close to our borders?
    Mr. Miller. Well, if you look at our annual report last 
year, without getting into what our report is going to say this 
year, if you look at our report last year, we gave Cuba a very 
poor rating. And the reason we gave Cuba a poor rating is that 
Cuba officially supports travel-industry ventures that 
encourage and promote child-sex tourism.
    And not just under our law; under international covenants, 
under international laws, this is per se a form of slavery. The 
victim of child-sex tourism cannot ``consent.''
    We offered, through our Interest Section in Havana, to work 
with the Cuban government on this issue, but that offer was 
refused. And the leader of Cuba made his hour-and-a-half or 
two-hour speech denouncing our report, among other things.
    So I would like to see the situation in Cuba, as in every 
country, improve.
    When you talk about slavery and totalitarian states, North 
Korea is an example. There is no question there is slavery in 
North Korea. Some of the victims of slavery flee across icy 
rivers and borders, and then are returned on occasion by the 
Chinese government to North Korea. These are problems we 
comment on in our report.
    Mr. McHenry. Thank you, Madam Chairman.
    Thank you, Ambassador, for your testimony.
    Chairman Pryce. Thank you, Patrick.
    The Chair recognizes the gentleman from Georgia, Mr. Price.
    Mr. Price. Thank you, Madam Chair. I am honored to serve on 
this committee, and I, too, commend you for your new 
chairmanship and am pleased to be with you.
    Ambassador Miller, I welcome you as well, along with 
others. I am astounded by the magnitude of this problem, and I 
commend you for your work.
    I am interested in how we define the magnitude of the 
problem and kind of what the triggers are. Recently, as I 
understand it, with the tsunami there was an increase in human 
trafficking.
    Help me understand how we knew that. What were the 
indicators?
    Mr. Miller. I think the tsunami, Congressman, focused 
attention on this issue. But in that area, East Asia, Pacific, 
there was and is a huge trafficking problem. I cannot say that 
the tsunami greatly increased it. I think it focused needed 
attention on it.
    But you asked the more difficult question and that is, how 
do you measure this issue?
    It is very hard, because the victims do not stand in line 
and raise their hands to be counted. Okay? So the estimates are 
guesstimates, in my opinion. You take law enforcement figures, 
prosecutions, victims. You go to NGOs and you get their reports 
of victims. You go to academic studies, news media reports, et 
cetera.
    This leads to our government coming up with an estimate 
that as many as 800,000 men, women and children are trafficked 
into slavery across international borders every year, and up to 
17,500 trafficked across our borders into slavery every year.
    Mr. Price. Those numbers are extrapolations, or are those 
actual----
    Mr. Miller. They are partly extrapolations and they are 
partly based on--yes.
    But is it a scientific figure? Of course not. Nobody 
counted 800,000.
    Mr. Price. Right.
    Mr. Miller. And some people think the figure is too low, 
and some people think the figure is too high. But, remember, 
that is annual across international borders. That does not 
count internal slavery in the brick kilns of India or Pakistan, 
for example. That does not count those who were in slavery at 
one time. That is just counting traffic across international 
borders in one year.
    So obviously, if you are looking at a total slavery figure, 
and you give any credibility to that 800,000 figure, the total 
figure of those in slavery in a year has to be in the millions.
    Mr. Price. Which gets to my next question: If we cannot 
quantify the magnitude of the problem, how do we measure 
success?
    Mr. Miller. Well, the first speech I ever gave when I took 
over this position 2 years ago, I went out to Georgetown and I 
gave this speech, and I was all fired up, and some sociology 
professor got up and asked the same question: How are you going 
to measure success in this?
    Our office is right now, we are working with the CIA--there 
is going to be a conference in the next couple of months; we 
are inviting academics--we are trying to get a better handle on 
measuring success.
    What we do now, we can measure prosecutions--and now we can 
measure them around the world pretty much. We can measure 
convictions. We can measure sentences. We can measure victims 
served in shelters. We can measure victims reemployed. We can 
measure how many people are reached by education programs, 
either warning potential victims or trying to change the 
attitude of society--that we can start to measure, and we know 
those measurements are showing progress.
    And so we conclude if those things are happening--there are 
more convictions, more anti-trafficking-in-persons laws, more 
leaders speaking out--we hope that the corner is being turned.
    But can we prove it scientifically? Not yet.
    Mr. Price. I have a very specific question about the 
countries of Sudan and Venezuela and Equatorial Guinea that I 
understand are under sanctions, or have had sanctions against 
them, but they have been given exceptions. Can you enlighten me 
as to why we would give countries that are under sanctions 
exceptions and in what national interest we----
    Mr. Miller. Sure.
    You mentioned Sudan----
    Mr. Price. Venezuela and Equatorial Guinea.
    Mr. Miller.--and Equatorial Guinea.
    I am not aware of an exception on--well, Sudan, I will tell 
you the exception on Sudan.
    The exception was, if Sudan were to sign a peace accord, 
that AID would be allowed to implement the peace accord. The 
decision was made, I think appropriately, by the Secretary of 
State and the President that in an effort to stop the killing 
and the genocide that it was important not to cut off all aid 
to Sudan, if they signed the peace accord, which they did.
    Chairman Pryce. Then gentleman's time is expired.
    Mr. Miller. Let me get back to you----
    Mr. Price. Thank you.
    Mr. Miller. I will get back to you on Equatorial Guinea and 
Venezuela. They did see some sanctions, but it may not have 
been the full panoply, and I will get back to you on that.
    Mr. Price. Thank you, Madam Chair.
    Chairman Pryce. The Chair would like next to recognize the 
former Chairman of this committee, Mr. Leach.
    Mr. Leach. Well, thank you. I am delighted to serve under 
you in your maiden voyage here.
    It is hard to put perspective on issues of the day, 
particularly this kind of issue.
    I want to make a couple of comments about you, Madam Chair.
    In the Congress of the United States, committees have 
certain jurisdictions, but people have certain rights to do 
what they want to do. And you have chosen to take on one of the 
most profound issues in the world. We are all in your debt, and 
we thank you.
    In terms of jurisdiction, in one sense, when I looked at 
the subject of this hearing, I thought, ``Why this 
subcommittee?'' And then you think, we have jurisdiction over 
trade. And of all the extraordinary things, there is a trade in 
people. That is very profound. And it fits.
    We also have certain jurisdiction over technology. And you 
indicated that on the Internet slave-trading sites appear. I 
had no idea that something so terrible would be on the 
Internet. I guess I am beyond an age that I would think such 
things exist, but the idea of sex-tour sites is really 
horrifying.
    And so one of the things that comes immediately to mind, it 
seems to me that if someone tracks us from a governmental point 
of view, instantaneously one would communicate with a country, 
``This site has appeared. What are you doing about it?'' Do you 
do that sort of thing?
    Mr. Miller. I am sorry, say that last----
    Mr. Leach. You suggest things appear on the Internet.
    Mr. Miller. Right.
    Mr. Leach. Let us say it is an auction site.
    Mr. Miller. Right, right.
    Mr. Leach. Do you instantaneously contact the government of 
that country with this information: ``This site is here, this 
is the information, what are you doing about it?"
    Mr. Miller. Well, interestingly, Congressman Leach, the 
sites that have been brought to my attention are in the United 
States.
    Mr. Leach. Okay.
    Mr. Miller. And what I do is, I ship this over to the 
Justice Department when I get this material, and they are 
trying to figure out a way to get at these sites. I do not 
think yet they have solved that riddle.
    The New York attorney general brought a lawsuit against one 
of these sites, Big Apple Tour, and lost the lawsuit. There are 
free speech, intent--all these issues--how do you know the 
person is going to commit the act when they get there, how do 
you--you know, all the defenses that can be raised.
    So we have to, in government--I am speaking as somebody not 
directly involved in this--but I think, clearly, we in 
government have to focus more attention on how we get a handle 
on this. And I do not have the magic-bullet answer right now. 
The lawyers are going to have to come up with that answer. 
Because people send this stuff to me, and it is outrageous. It 
is really outrageous.
    And we will get some of this to you so you can look at it.
    Mr. Leach. Well, I am less inclined to look at it. But 
someone else should, someone who is accountable for doing 
something about it.
    Mr. Miller. I understand.
    Mr. Leach. There is a distinction between prurient interest 
and the national interest, and we have to be very careful here.
    Do you contact the governments of the countries that are 
advertised?
    Mr. Miller. Yes, yes, we do, we do. And we are in 
communication--we know the countries that have most of the sex-
tourism facilities. I can name them. They are countries like 
Thailand, Cambodia, Costa Rica, The Gambia, et cetera.
    We are in touch with those countries, and we do urge them 
to take action.
    But at the same time, when we talk with them, we say we 
recognize that we, and other so-called developed nations, are 
contributing to this problem.
    I mean, when I visited Chiang Mai, Thailand, which is a 
child-sex-tourism center, and I talked with the kids and NGOs 
there, and I said, ``Where do these tourists come from?'' they 
were not coming mostly from Thailand. They were coming from the 
Netherlands, Germany, United Kingdom, United States, Japan, 
Australia.
    So this is what led you to pass the Child PROTECT Act a 
year-and-a-half ago to crack down on this.
    This is not just the problem for the country where the site 
is--and the President recognized this in his speech to the U.N. 
We, the countries that are sending the tourists, have a 
challenge.
    Mr. Leach. Let me just conclude very quickly, Madam Chair.
    I am very impressed with the speech of the President. His 
words were thoughtful, on the target and, frankly, eloquent.
    I am also very impressed that he has designated you to head 
this office, Ambassador. We are very impressed with your work 
and your commitment, and thank you very much.
    Mr. Miller. Thank you for the kind words.
    Mr. Leach. Thank you, Madam Chair.
    Chairman Pryce. Thank you, Mr. Leach.
    I would like now to take an opportunity to recognize Ms. 
Lee.
    I believe you are here with your granddaughter----
    Ms. Lee. Thank you very much.
    Chairman Pryce.--introduce her.
    Ms. Lee. Yes. Let me just say thank you for this hearing 
and thank our Ranking Member.
    And this is my granddaughter who is from Sierra Madre, 
California, Miss Jordan Lee, 11 years old. She will be 12 on 
Saturday.
    And I am very delighted to have her with me today, 
especially during this very important hearing because young 
girls and young women, first of all, are so affected by this 
issue. And secondly, I think women are going to have to really 
figure how to address it. This is such a horrendous problem. 
What it is, is modern-day slavery.
    So I just want to thank you, Ambassador Miller, for being 
here.
    And I again thank our Chair and Ranking Member for this 
hearing.
    I am glad that we do have young people here to listen to 
this.
    Let me ask you a couple of things just about the mechanisms 
that are in place that maybe we have not utilized. And I want 
to read you what this says in terms of the Convention on the 
Elimination of Discrimination Against Women.
    Now, 20 years ago the United Nations General Assembly 
adopted this convention, and so Part 1, Article 6 of the treaty 
obligates governments which are party to CEDAW to take, and 
this is what Part 1, Article 6 says: Take all appropriate 
measures, including legislation, to suppress all forms of 
trafficking in women and the exploitation of prostitution of 
women.
    Now, the United States signed the treaty in 1980, but we 
have yet to ratify it.
    So, Mr. Ambassador, I wanted to know: Given the concern of 
the President, and of course your concern, and the magnitude of 
this problem, why in the world does not this administration 
lobby the Senate to ratify CEDAW?
    And I just want to know, have you and Secretary Rice 
weighed in with the White House or Senate in terms of just 
trafficking, sex trafficking, and utilize this as a vehicle to 
really help us come to grips with addressing it and eliminate 
it?
    Mr. Miller. Well, Congresswoman, I do not pretend to be an 
expert on that treaty, but I think the administration's 
objections do not relate to the trafficking section.
    And if you are talking about international covenants to 
oppose trafficking, the U.N. passed a wonderful covenant on sex 
exploitation in 1949, which we did ratify. The U.N. just 
recently, several years ago, adopted a special protocol to 
fight trafficking. And the present administration fully 
supports it, sent that to the Senate over a year ago.
    We are hoping to get Senate ratification soon. Many 
countries are starting to ratify it. And it lays out--and to a 
large extent it is based on our law, the law you passed, and it 
lays out a whole array of tools that countries can and should 
use on this issue.
    Ms. Lee. But in terms of CEDAW, again, I think anytime we 
have any laws or treaties that address sex trafficking and the 
human exploitation of women, we should be party and we should 
ratify those treaties.
    Mr. Miller. Well, I will say this: Here I have told you 
about this U.N. protocol that we signed and the President wants 
us to ratify, but I am also going to say that while I am all 
for this protocol, I will give my opinion that while protocols 
are helpful, my experience, traveling around the world, is that 
the will of governments is more important.
    Ms. Lee. Sure.
    Mr. Miller. And when I talk to justice ministers and 
foreign ministers and sometimes prime ministers and they say, 
``Well, we signed this agreement,'' and I say, ``That is nice, 
but what are you doing to throw the traffickers in jail and 
free the slaves?"
    Ms. Lee. Sure.
    Mr. Miller. And that comes from willpower at the ground 
level.
    Ms. Lee. And by signing and by ratifying CEDAW, that would 
show that the will of our government is right there with the 
international community in terms of eliminating all forms of 
discrimination against women and using another mechanism to 
address sex trafficking, especially since so many of the 
customers come from the United States of America.
    Let me just conclude by asking you about Africa, in terms 
of countries in Africa where many applied for asylum in the 
United States because of the dangers of human trafficking. Do 
you have any handle on the numbers of Africans that have 
requested asylum based on this notion or this part of the 
asylum provision of our laws?
    Mr. Miller. I do not. And I am not sure that the asylum 
provisions specifically include a trafficking section. You 
raise a very interesting point. I think asylum is directed to 
fear of persecution.
    Fear of persecution could involve persecution by 
traffickers, if you get sent back home, as well as governments.
    But let me check into that further and get back to you, 
Congresswoman.
    Ms. Lee. I would appreciate getting your response on that.
    Thank you, Madam Chair.
    Thank you, Mr. Ambassador.
    Chairman Pryce. We have vote on. We have 10 minutes and 30 
seconds left. It is probably 10 minutes now. We will take 
another 5-minute question and recognize Ms. Harris from 
Florida.
    Ms. Harris. Thank you, Madam Chairwoman. Thank you so much 
for your outstanding leadership on this incredibly important 
issue.
    I truly appreciate your scheduling this hearing on human 
trafficking, which continues to grow in scope and intensity. 
And I share your very passionate concern and look forward to 
working with you to find a solution to this scourge.
    I also wish to welcome our distinguished panel.
    And, Ambassador Miller, in particular, thank you for your 
outstanding work. We think you are doing a magnificent job to 
end this evil practice.
    A couple of questions real quickly: The sentencing 
guidelines under the Protect Act of 2003 limits sentences for 
sex crimes against children to 30 years. The punishment seems 
lenient, particularly when fines and parole remain options.
    Do you think it would be more appropriate to define these 
offenses as violent crimes--we have discussed this before--that 
would be subject to federal sentencing guidelines, as such? 
And, then, perhaps we could strengthen asset-forfeiture laws 
regarding them as well.
    Mr. Miller. Well, Congresswoman Harris, you have taken a 
great interest in this issue, and I want to thank you.
    I agree with the spirit of your question. I think we can 
always look at strengthening the laws.
    The sentences that have been handed down--and I do not have 
them in front of me--but my recollection is, the sentences that 
have been handed down, while they are much heavier than in 
other countries, I am not aware of anybody getting 30 years. If 
there was, that was an exception. You know, there is this plea 
bargaining that goes on.
    But from my point of view, when you are talking about 
people that have committed kidnapping and rape, the sentences 
ought to be equivalent.
    Ms. Harris. If they were reclassified as a violent crime, 
then the federal guidelines would be associated as such. 
Because right now, even though it says 30 years, when you can 
waive the fines and waive the parole, it just does not seem it 
is adequately being addressed.
    Mr. Miller. Well, I am not knowledgeable on the nuances of 
the sentencing rule, but I appreciate your concern and welcome 
your looking into it.
    Ms. Harris. Thank you, sir. Thank you for your service.
    Chairman Pryce. At this time we have to leave for our vote. 
I would like to recess the hearing for 15 minutes, at which 
time we will return to our second panel.
    Once again, our gratitude to you, Mr. Ambassador, for being 
here today and for your work on this issue.
    Mr. Miller. Thank you for holding this hearing, Madam 
Chairman.
    Chairman Pryce. Recess, 15 minutes.
    [Recess.]
    Chairman Pryce. We left in haste.
    I would like to say before dismissing the panel and 
Ambassador is still here, the Chair notes that some members may 
have additional questions for this panel which they may submit 
in writing. And without objection, the hearing record will 
remain open for 30 days for members to submit written questions 
to our last witness and to place his response on the record.
    Without further ado, we will move on to the second panel of 
witnesses.
    Norma Hotaling is a familiar face to many, many of you here 
today. She is an innovative and effective voice for survivors 
of prostitution, exploitation and trafficking and a founder of 
the SAGE Project in the San Francisco area and soon all across 
the United States, very thankfully.
    Ms. Hotaling is joined on the panel by Tina Frundt, a 
representative from the Polaris Project, a multicultural, 
nonprofit organization based in Washington, D.C., and Japan.
    This organization is recognized internationally for their 
efforts in outreach and service to victims of trafficking.
    We welcome these witnesses here today, recognize them for a 
5-minute summary of their testimony.
    Without objection, your written statements will be made a 
part of the record.
    We are very, very pleased to have you here, and, Tina, 
especially for your very courageous words that we will hear.
    And who would like to go first? Ms. Hotaling?

     STATEMENT OF NORMA HOTALING, EXECUTIVE DIRECTOR, SAGE

    Ms. Hotaling. That would be fine.
    Madam Chairman, I am so honored to speak here today and am 
especially honored that this is the opening subcommittee of the 
109th Congress. I am particularly happy to see so many women 
standing up for the rights of other young human beings, both 
boys and girls and women.
    And I would like to start my speech by saying how proud I 
am to know Ambassador Miller. I consider him to be a beacon of 
light in the efforts to eradicate the accepted and endorsed rap 
and torture of millions of women and girls.
    I hope you make every effort to give him and the TIP office 
all the support, tools and resources they need. He is an 
absolute champion for those women and girls who are exploited, 
abused and forced into slavery.
    I am proud to call him a friend and to know him as a 
colleague.
    My name is Norma Hotaling, and I am the executive director 
and founder of the SAGE Project in San Francisco.
    SAGE is the first and the foremost organization providing 
integrated trauma, mental health and substance abuse services 
for survivors of prostitution, exploitation and trafficking.
    Because our programs are designed and delivered by 
survivors of prostitution, we effectively provide support and 
engender trust without re-traumatizing even the most fragile of 
clients.
    Each week we serve over 350 women and girls, most of whom 
are life-long victims of sexual, emotional and physical abuse. 
And then they suffer the humiliation of arrest after arrest.
    SAGE, in coordination with the San Francisco district 
attorney's office and police department, developed the nation's 
first restorative justice program that addresses the demand 
side of prostitution. And that was developed in 1995, and it is 
called FOPP, or First Offender Prostitution Program.
    Over 7,000 men have attended this program. They are 
arrested, they pay a fee. Those fees fund rehabilitation 
services for the real victims of sexual slavery: women and 
children.
    The program has been replicated in over 35 jurisdictions 
throughout the country.
    SAGE is a dynamic departure from the previous practice of 
revolving-door arrests of individuals involved in prostitution 
with little or no services available. And because the average 
age of entry into prostitution is 12, 13 and 14, the issue is 
not only one of violence but also sexual abuse and rape of our 
children.
    Every day vulnerable girls of color as well as white, blue-
eyed, blond girls and any girl who is vulnerable and naive and 
between the ages of 12 and 17 are brutally and cunningly 
recruited by violent or smooth-talking pimps from high schools, 
streets and shopping malls, and they are delivered in our U.S. 
major cities.
    Poor, vulnerable Asian, Central American and Russian women 
and girls are smuggled, kidnapped and raped and tricked and 
coerced by traffickers and organized crime syndicates into 
highly invisible and mobile sex trade that includes strip 
clubs, escorts, massage parlors, brothels and street 
prostitution.
    These women and children make up the supply side of 
prostitution. The demand side of prostitution is comprised 
mostly of educated, middle-class and upper-class men.
    In prostitution, we see the fragility of the human mind. We 
see it brutally manipulated and molded to serve the purposes of 
perpetrators.
    Universally, we experience the victims being targeted, 
blamed and punished by social service, mental health, medical 
and criminal justice systems.
    Vanessa, who came to us at 18, said, ``My pimp knocked me 
out with a baseball bat. I woke up, and he was sewing up my 
head. He would not even take me to the hospital. How can I get 
away? He would kill me first. Besides, he was all I knew. I had 
been with him since I was 12.''
    Through SAGE, we shed light on a subject that thrives in 
darkness, secrecy, silence and shame.
    SAGE raises community awareness regarding international and 
domestic trafficking in addition to providing direct service to 
the victims of trafficking. But combating trafficking requires 
coordination between law enforcement, legislators, the 
judiciary and community-based organizations.
    We have found that unlike domestic-trafficked victims, 
international trafficking victims are less likely to be found 
in jails. They are found in quasi-legal, U.S. government-
licensed and tolerated prostitution systems commonly known as 
massage parlors.
    We have, therefore, been involved in significant 
prostitution abatement and legislative reform efforts aimed at 
massage parlor licensing, as well as nail salons and 
acupuncture clinics. These type of businesses have proven to be 
destinations for individuals who come to the country under 
promissory arrangements in which women and girls are forced to 
work off their debts.
    The trend we observed is that arrestees who are being 
solicited out of private residences are immediately relocated 
once arrested. This indicates that there is a third-party 
oversight of these women's activities and that resources, which 
pay for plane tickets and relocation costs, are directed 
towards keeping them working in the sex trade.
    We have heard story after story told and retold about the 
billions of dollars made from trafficked women and girls that 
enrich transnational crime networks, the corruption of 
officials through bribes and the collaboration of criminal 
networks with government officials that enable traffickers to 
operate.
    But what is historic, what is heroic and what is 
transpiring now is that we have awakened to the fact that these 
networks are financed $1 at a time by men, who we call ``the 
demand,'' who we have allowed to buy human beings and use them 
though they are nothing more than receptacles, like toilets and 
sewers.
    We have normalized their behavior while criminalizing the 
real victim.
    I can tell you story after story where there were no bribes 
of officials. These are the stories that involve ``the 
demand,'' the men. They are always free to go. They are 
released without ever paying a bribe, without an arrest, to 
enjoy their dinners, their families, their jobs while 
continuing to pretend that their hands are clean, and the 
millions of wounded, missing, dead women and children a result 
of other very bad, very organized people doing very bad deeds.
    Today, with your efforts, and the introduction of the End 
Demand For Sex Trafficking Act of 2005, this protection and 
collusion with the real perpetrator is ending.
    Dollar by dollar paid by ``the demand,'' the line between 
the state and criminal networks starts to blur, making it seem 
impossible to intervene in the succession of corruption, 
collaboration, crime and profit.
    Dollar by dollar, the money that the men pay to buy, have 
delivered, harmed, toss aside women and children is laundered 
through bank accounts in offshore accounts.
    We like to fool ourselves into thinking that domestic and 
international trafficking is driven by economic despair and not 
by the protection and collusion with the men who demand to buy 
women, human beings, and thus create the market for sex slaves.
    As long as we point our finger away from ourselves, away 
from the institutions that blame and criminalize women and 
children for their own rape, their own sexual abuse, their own 
trafficking, their own slavery, as long as we point our fingers 
away from the men who we normalize as johns, and as long as we 
disconnect adult prostitution and the exploitation of children, 
and disconnect prostitution and trafficking in human beings for 
the purposes of rape, of sexual abuse, of sexual slavery, then 
we are to blame.
    Like most of SAGE's clients, I was exploited as a child 
through prostitution. I suffered years of trauma, drug use, 
criminalization and involvement in this adult-sex trade.
    It is my job and my purpose to prevent sexual slavery and 
to end the demand for prostitution while providing women and 
girls like myself and the staff of SAGE the opportunity to lead 
healthy and fulfilling lives.
    Thank you for my chance to speak to you today. It is such 
an honor and a dream come true. With your continued assistance 
and the recommendations that are forthcoming from this 
committee, we can put an end to sexual exploitation and slavery 
of millions of women and girls in and outside of our borders.
    Thank you.
    [The prepared statement of Norma Hotaling can be found on 
page 48 in the appendix.]
    Chairman Pryce. Thank you, Norma, very much.
    Tina?

           STATEMENT OF TINA FRUNDT, POLARIS PROJECT

    Ms. Frundt. Chairwoman Pryce, Ranking Member Maloney and 
subcommittee members, thank you for convening this hearing on 
trafficking in persons, for giving me an opportunity to share 
the experience of Polaris Project, as well as my experience as 
a survivor of sex trafficking.
    I also want to thank you for supporting the End Demand For 
Sex Trafficking Act. It is historic legislation and addresses a 
terrible long-overlooked problem. Your leadership means a 
tremendous amount to myself and to all of our clients.
    Polaris Project is a multicultural nonprofit organization 
based in Washington, D.C. We also have an office in Tokyo, 
Japan, with a national advocacy and local direct intervention 
programs.
    We serve victims of all forms of trafficking, including 
both foreign nationals and U.S. nationals, exploited in both 
sex and labor trafficking.
    Today, however, I am going to focus on domestic sex 
trafficking of U.S. citizens within our own borders.
    I understand this problem very well. Because 20 years ago, 
my first pimp was my foster mother's boyfriend who forced me to 
have sex with strange men who came to our house.
    When I was 14 years old, I was forced out on a street in 
Chicago. I ran away from home to be with a wonderful man, I 
thought, an older man who sold me great dreams of living 
together, making money and becoming rich. He told me that if I 
loved him, I would help make money for us.
    At first, it was the just two of us. But then he introduced 
me to other women, and I soon learned he was a pimp.
    He brought us to Cleveland, Ohio, and told us how we will 
make for us and then that we were a happy family. He told me to 
have sex with one of his friends. I did not want to, so his 
friend raped me.
    Afterwards he said that would not have happened if I just 
listened to him from the very beginning. So I took it as my 
fault. Instead of being angry at him for being raped, I was 
angry at myself for not listening to what he said.
    Right after that he started telling me what to wear, what 
to do, and forced me to go out on the streets to have sex with 
men.
    When I was first on the streets, I walked back and forth 
for hours, hiding until the morning. Our quota was $500, but I 
had only $50 that night to give to my pimp. So he beat me. He 
beat me in front of the other girls as a lesson and made me go 
outside until I made the money.
    My second night out, I came back with $500, but it still 
was not enough. It was not enough for him. He told me to go out 
again. I was out for a straight 24 hours. When I went back, he 
finally bought me something to eat. But as a punishment, he 
locked me in a closet to sleep.
    I will sleep in that closet for many, many times more.
    This is the same man who took me out to eat, listened to me 
when I wanted to complain about my parents and gave me words of 
advice. But increasingly, I was seeing a side of him that I 
never saw before. I was shocked and I was scared. What will 
happen to me if I did try to leave? And who will believe me if 
I told them what was going on?
    After a while, I became numb to the abuse. It happened so 
much, it is like eating breakfast in the morning: You may not 
like what you eat, but you get used to the routine.
    Pimps are very sadistic. They train you and they manipulate 
you. After my pimp broke my arm with a bat, he told me to sit 
on his lap and asked me what was wrong. When I said, ``You 
broke my arm,'' he beat me some more. He kept beating me until 
my answer changed: that I fell down.
    When he broke my finger, I was not allowed to see a doctor, 
so I wrapped it with some tape, and it never set correctly.
    What happened to me 15 to 20 years ago is still going on 
today across the U.S. In some cases, today's young women and 
girls have it much worse than I did.
    Our clients include a young woman first prostituted by her 
mother when she was 12. Another was sold to a pimp by her 
mother 2 days before her 14th birthday. Another was kidnapped 
and prostituted on a national circuit when she was 12 years 
old.
    The reality of our clients is sex with men 7 days a week, 
year round, usually between the hours of 10 p.m. and 5 a.m. On 
an average night, they are forced to have sex with 10 to 15 
people a night so that their pimps can buy luxury cars and 
houses, have quotas ranging from $500 to $1,000 every night for 
each woman.
    This is a lucrative, criminal industry. Some estimate 
profits from human trafficking range from $7 billion to $9 
billion annually.
    We recently sat down with a survivor of sex trafficking who 
was first prostituted in her early teens. Representing a 
typical case, her trafficker generated an estimated $130,000 
from her profits each year alone. He made approximately $24,000 
a month off her and other women and made about $642,000 a year 
between her and the other women, tax-free.
    The pimps are cocky now. They are not afraid of the police. 
They are not afraid of the judicial system. We as Americans 
have made them untouchable by not recognizing the problem and 
solving it.
    If we are judging the efforts of other countries to combat 
trafficking, we certainly must aggressively fight the 
traffickers of our own U.S. citizens, ensuring that no sex 
trafficker feels he can profit from modern-day slavery.
    Undermining demand is the key to cutting off the funding at 
its source, preventing traffickers from generating and 
laundering profits.
    Like foreign national victims, domestic victims are also 
moved away from their home. The pimps move these young girls 
and women from state to state where they have no one to trust 
and no one to turn to. They cannot go back because they are 
ashamed and they are afraid to tell their families.
    On the outside looking in, we think, ``There are so many 
resources for them.'' But in reality, where are the resources 
and how do they know about them? How can you ask for help from 
the police when they have done nothing but arrest you and they 
treat you as a criminal and not as a victim?
    The domestic sex trafficking of women and children across 
the United States can only be described as a crisis. To begin 
to address his problem, I would like to make the following 
recommendations:
    First, recognize all victims of trafficking, including 
adult citizens who are trafficked by force or coercion.
    Two, provide funding for comprehensive and specialized 
service, especially shelter, for domestic trafficking victims 
in cities across the U.S., complementing the existing funding 
for foreign national trafficked persons.
    Three, we need to train local units and youth service units 
in police departments, and especially Child Protective Services 
to combat trafficking, including domestic sex trafficking.
    Four, we need to modify the sex offenders registry to flag 
sex traffickers, pimps and johns who commit sexual abuse. A 
tracking system is necessary, because the sex trafficking of 
pimps, they move from state to state, selling women and 
children.
    Five, we need to prosecute of hotels and advertisers and 
other legal businesses that knowingly profit from or launder 
profits from human trafficking.
    As a voice among hundreds of thousands who have been 
unheard, I thank you again for supporting the End Demand For 
Sex Trafficking Act and for your commitment and continuing 
leadership on this issue.
    Now that you have the knowledge, what will you do with it?
    Thank you.
    [The prepared statement of Tina Frundt can be found on page 
41 in the appendix.]
    Chairman Pryce. Thank you both very much for your 
testimony. You both have exhibited great courage here today and 
in your daily work.
    I sense that your stories are very common, that there is 
something similar in each victim, and that is very sad.
    And, Tina, thank you for your suggestions. Hopefully much 
of what you would like to propose that we do is touched upon in 
the bill that we are going to introduce later today. So once we 
get that done, you can help us as you continue in your work to 
help us get it passed too.
    I am curious if either of you have an opinion as to what 
the most effective measure that we as the United States 
government can take in combating trafficking, both at home and 
overseas?
    Ms. Frundt. I think one of them would be that sex-offenders 
registry, because the pimps and johns are pedophiles. They are 
abusers, they are rapists. Adding them to the sex registry, 
because they move from state to state, and flagging them for 
what they truly are, as pimps as johns, will make everyone 
aware and put them in the spotlight and showing that this is 
glamorized, that these are sex abusers who are preying on our 
children and women. I think that is one way we can help.
    Ms. Hotaling. In my experience and with working with 
johns--which is a term I hate--when we start talking to them 
about what would happen, what would they do if they were going 
to be arrested as rapists and sexual abusers, they immediately 
say they will stop.
    I think that there needs to be an advocacy program that 
says--I do not believe that you criminalize your way out of 
this. I think you can criminalize and advocate your way out of 
this, but it has to start with the men. They are the ones that 
are supplying the money for all of this, for all of the harm.
    And we have to be very serious that their behavior is not 
normal, it is not just normalized prostitution, and that when 
it involves a child that it is sexual abuse and it is rape, and 
they are going to be arrested and charged with that.
    And one of the hardest of folks to work with are the police 
on this. They let the men go. Every girl that has been through 
our program has said, ``They have found me in a sex act. They 
have told the guy, 'What are you doing out here with this dirty 
little whore?' and they have let the guy go, and they have 
arrested the girl.'' And that has to end. The good 'ole boys 
network has to end.
    And the criminal justice folks really need to take this 
seriously and look at the men as what they are, as real 
predators.
    We are teaching men through especially child prostitution 
how to be pedophiles, and then we are normalizing their 
behavior, and we are creating--we have created a group of 
children that it is okay to sexually abuse and rape. We just 
set them aside, and then we arrest them.
    So we have to change our language and how we address this 
issue.
    And I love the idea of a sex registry. They should be 
registering.
    Chairman Pryce. Well, Norma and Tina, let me just say, as a 
former judge, I am here to attest that there is a definite 
ingrained bias in our system. It is centuries old, and it is 
going to take a lot to change the mentality.
    Can you think of ways besides the registry that we can 
shine light on this and make Americans, especially, more aware?
    Ms. Hotaling. In California, we just passed a law which 
is--it is so common-sense it is hard to even talk about--and we 
have changed the sexual abuse in the statutory rape law to add 
years to it. We have enhanced that law that says: If you use 
money, goods or services in order to gain sexual access to a 
child, you are not only going to be charged with sexual abuse 
and statutory rape, you are going to be--there are going to be 
extra years added to your time.
    And what we need to do is, we need to make sure that it is 
not only being investigated and prosecuted that way in San 
Francisco but throughout the country, that the laws that we are 
using on child exploitation, especially, are the sexual abuse 
and the statutory rape laws--end of story.
    Even the Center for Missing and Exploited Children still 
call it child prostitution. They do not analyze the sexual 
abuse in the stat rape laws. They do not look at how those laws 
are being used throughout the country, and they are directing 
criminal justice folks throughout the country to go after the 
pimps and the traffickers but not the johns.
    Chairman Pryce. Well, I appreciate those suggestions, and 
we will take them to heart. It is certainly important that we 
keep the spotlight on this issue.
    Thank you both very much for being here today and sharing 
with us.
    I now recognize my Ranking Member, Ms. Maloney.
    Mrs. Maloney. I want to thank you both for your very brave 
and moving testimony. It is very difficult to talk about 
yourself publicly, but I feel that your story helps to educate 
us, inspire us, and will help us be more effective in 
preventing such actions towards others.
    So I want to compliment you for what you have done with 
your life. You have taken a tragedy and turned it into a 
success in helping others, and it is truly remarkable.
    As you know, in our bill a third goes to helping-victim 
programs that would help young girls and boys, and two-thirds 
goes to grants that would be an incentive to states and 
localities to prosecute pimps and johns, or perpetrators.
    What would be a better word of johns? Perpetrators?
    Ms. Hotaling. Perpetrators, ``the demand.''
    Mrs. Maloney. ``The demand'' side. But currently it is 
against the law now. They are just not doing it.
    Ms. Hotaling. Exactly.
    Mrs. Maloney. Earlier, I remember we used to give grants to 
educate the police and the prosecutors across this country 
about rape as a crime, that beating up your wife was not an 
acceptable activity and that rape should be treated like a 
serious crime.
    We have made a tremendous effort, and maybe we need to do 
the same thing.
    I think another thing that one of your advocacy groups--it 
may have been Polaris--said to me, that in their research on 
the criminal cases, it is always the women, never the men----
    Ms. Hotaling. Yes, right.
    Mrs. Maloney.--and possibly keeping a report--or just 
requiring a report; it would not cost government money--of how 
many women are convicted versus men when it is illegal for 
both. That would be another way of providing a spotlight on it.
    I would like to ask Tina: In your second recommendation you 
said that we needed funding for services and support for 
domestic trafficking victims that complemented the existed 
funding for foreign national victims of trafficking persons.
    I would ask you to clarify: Are we funding for foreign 
trafficking of victims but not for domestic trafficking of 
victims?
    Ms. Frundt. Yes.
    Mrs. Maloney. Do you know how much funding we put in for 
foreign trafficking of victims?
    Ms. Frundt. That I honestly will have to check on that and 
come back with that amount for you.
    Mrs. Maloney. I find this so troubling, because your story 
tells a failed story of a government that I believe in and that 
I support--the foster care system not reporting the foster 
mother being an extreme abuser, and the fact that our existing 
systems that we were hoping were helping people are not.
    As two victims, could you advise us: What could we have 
done better as a government?
    Many of us have served in local government and funded 
foster care, supported it. Obviously the system did not work, 
and if you could share how you got out of it. Was it an age 
item, that you got old enough to realize what was happening to 
you so you left?
    Could you share that so we would understand how we could 
help other young ladies and men get out victimization?
    Ms. Frundt. Well, fortunately, I was lucky enough to get 
adopted when I was 13. However, I went through years----
    Mrs. Maloney. Tina, how did you get out? Did you just one 
day realize and run away? How did you get out?
    Ms. Frundt. No, I ran away numerous times when I was 10 
years old to sleep in abandoned buildings in Chicago. I told my 
social worker repeatedly what was going on, who did not choose 
to believe me.
    I was taken to a doctor, 11 years old, who did not want to 
believe me.
    I tried to commit suicide when I was 11, and they stuck me 
into a mental hospital for children in Cook County.
    The problem is, social workers are telling them, telling 
children, ``Look, I have too many cases. Try to behave. Try to 
behave and calm down.'' But what they are doing is sweeping the 
problem under the carpet.
    So do I have some plan on how to stop this? No, but it is a 
problem. They need better training. They need training of 
recognizing sex crimes, that we are being trafficked.
    We need someone to listen to us when we are telling them 
what is going on, not that ``I have too many cases and I cannot 
address the problem.''
    Ms. Hotaling. I had my staff do an experiment of calling 
CPS, Child Protection Services, on every child that came in 
that was exploited through prostitution and tried to put in a 
claim, they would not take them.
    And the calls went something like, ``I have a child here 
who has been exploited, sexually abused by over 300 men.'' They 
would say, ``Well, what is the name of the man?'' and we would 
say, ``We don't know.'' And they would say, ``Well, we are not 
going to take a case, we are not going to make a claim.''
    Probation officers, a child comes in for prostitution, that 
should be an assumption right there that that child has been 
raped and sexually abused, and they are mandated reporters and 
they need to be held accountable as that.
    And we fight continually with probation officers, and they 
scream at us, saying, ``How dare you try to make this child the 
victim. She is a perpetrator.''
    And we cannot get victims-of-crime money for these 
children, because they are considered involved in a crime at 
the time of their victimization.
    So the discrimination goes all the way up.
    So, one, we have to redefine, first, ``child 
exploitation.'' We have to do away with the term of ``child 
prostitution'' and make it ``child rape'' and ``child sexual 
abuse.'' Period. End of story.
    Mrs. Maloney. My time is up. I just want to say that 
changing attitudes is a huge hurdle, but we have to go really 
to the core in our society of changing attitudes.
    I think both of your testimonies were excellent. Thank you.
    Ms. Hotaling. I would like to just say one thing, that a 
study just came out in Denmark about 3 days ago on customers, 
and they found that when men started in prostitution as youth, 
they are the ones that continue throughout their lifetimes as 
customers.
    And so really starting prevention education programs for 
men around this is very, very important.
    Chairman Pryce. Thank you.
    I would like now to recognize the gentlewomen from Florida 
who is working very hard on some of your suggestions already, 
Ms. Harris.
    Ms. Harris. Thank you so much, Madam Chairman.
    I do want you to know we are working in law in honor of 
Carly Brucia--who was kidnapped, brutally raped and murdered--
that will address some of these things, including a national 
sex registry.
    I think Chairman Pryce's explanation and opportunity she 
said she would work with me on it, so I am looking forward to 
doing that.
    I want to say how grateful I am to both SAGE and Polaris 
for your leadership for these kind of things. I would like to 
see it firsthand and know more what we can do.
    I was going to ask the name, what we should call them 
instead of johns, predators. But definitely to change the 
definition. I mean, to call it child prostitution when they do 
not have a choice is unconscionable.
    So certainly to change it to exploitation, that then you 
would have no choice but to take the case instead of saying 
they were part of a crime, they were a victim.
    As for my questions: Do you think that organizations such 
as yours receive enough cooperation and support that it takes 
from local communities and local governments for your work? Or 
is there something lacking?
    What can we do to be more supportive? How can we help 
communities get more engaged, communities in our states?
    Ms. Frundt. Well, Polaris Project is currently on a task 
force trying to change the police minds on, one, that these are 
victims and they are forced into prostitution and not willing 
want to be into prostitution.
    That is the hardest part, is having them understand the 
victim status, even of the young women--and also recognizing 
that there are lots of young children that go through the adult 
court system, and they paper them as 18 and they go through the 
court. They are 14, 15 years old, going in front of the judge, 
going into D.C. jail. And we have talked to a few people on the 
police force who had said, ``Well, it is so much paperwork to 
paper them as juveniles.''
    Ms. Harris. This is just unbelievable testimony. And I 
think the most thing, when we talk about it takes a long time 
to change a mindset, I think it is also because people do not 
know, when you talk about sex trafficking or human slavery, you 
just do not think that exists in this century, and if it does, 
it is in some remote area. And when you hear that it actually 
occurs in our nation where we, you know, consider it to be just 
and moral, it is discouraging.
    But I do not know that it will take that long once you 
shine the spotlight on it, because everybody will be just as 
mortified as we are.
    I am grateful for your testimony.
    But Polaris, the statistics I have, it said that your 
materials included about 225 high-risk individuals, but you 
only were able to give 14 people support. What is it--you know, 
are we missing a lot of victims? Do you need more support? How 
can we help?
    Ms. Frundt. Well, again, victims do not shout out and say, 
``Hey, I am a victim, come help me,'' one, because of trust 
issues, of not even wanting to believe that there is someone 
that actually cares enough.
    When I come in contact with our clients, the first, initial 
contact, first of all, is, ``Oh, my goodness, I never heard of 
anything like this, and someone actually cares about me"--that 
is one.
    And then just realizing that, yes, we can do--it is a mind 
frame. Once you have been trained to think a certain way, it is 
very hard to be trained out of thinking that way, to think on 
your own, to say that you can do something on your own without 
someone controlling you.
    So, yes, of course, you are not going to reach--
unfortunately, not everyone is going to come up and jump up and 
say, ``I am a victim, please help me.'' It is a process.
    Ms. Hotaling. At SAGE we see around 350 women and girls a 
week in our services. The girls are referred to by juvenile 
probation. They are referred by Child Protection Services now.
    The police department, because of a very serious murder of 
a young girl, before she was murdered she was arrested when she 
was 14 when she was found in a sex act with a 45-year-old man. 
The man was let go. She was arrested. A month later she was 
found dead.
    And as a result of that, we have made sure that the police 
department identifies any child or anyone that they suspect to 
be a child so that we can have a continual record of that child 
and know who she is and who she belongs to and everything else.
    The girls in our program are also self-referred. They bring 
in other girls to the program. Their parents bring them to us. 
And it is a very, very intensive program.
    We are starting a safe house for girls in June.
    Ms. Harris. I would like to know about that. Just one last 
question----
    Ms. Hotaling. And we are starting with a budget deficit the 
moment we open the door, but we are going ahead with it.
    Ms. Harris. In Sweden they have criminalized the behavior 
of men, and it is drastically reduced, this type of behavior, 
when they are criminalized and not the victims, particularly 
the children.
    The most important thing we can do is end this type of 
behavior.
    Do you have any other suggestions with regard to being able 
to shut down the brothels and the massage parlors, those kinds 
of things, that would deal in human trafficking or child 
exploitation?
    Ms. Hotaling. Well, a number of places throughout the Bay 
Area--Oakland just started brand new ordinances to shut down 
massage parlors that are known to be fronts for prostitution. 
So they have an ordinance that would be very important to look 
at.
    San Francisco today is putting forth an ordinance to change 
the way massage establishments are licensed and that it has to 
be approved by the community. So they have to go through a 
community awareness.
    They have to go through the planning department and the 
community becomes advised that this establishment is opening 
up. So the communities are going to really stop these 
establishments.
    We are also training fire department, planning departments, 
other people that can go into these establishments and identify 
trafficking victims and identify prostitution--and if there is 
prostitution, there is trafficking--and then have a whole 
procedure of working with the victims.
    Chairman Pryce. The gentlewoman's time has expired.
    Now I would like to recognize Mr. Castle from Delaware.
    Mr. Castle. Thank you, Madam Chairwoman. And let me just 
thank you for having a hearing on something of vital 
importance.
    Let me thank both of you for being here. These are stories 
that are probably not that easy to tell in public, and I think 
it makes a great impression on everybody here.
    I have been sort of sitting here thinking a little bit 
perhaps differently, and I must admit that my questions may not 
be on international trafficking as much as just stopping the 
problem on a local basis, which could perhaps apply 
internationally.
    But just to get some ideas: I am from Delaware, and I know 
when we stop drunk drivers in roadblocks, it changed the 
behavior of people I know dramatically. They put their names in 
the paper, changed it even more.
    Every now and then they do that with the so-called 
perpetrators, johns, whatever you wish, they put their names in 
the paper when they stop them. And to me it seems to have 
changed behavior. I do not know if you have seen that before or 
whatever.
    I am going to add something else to that: The other aspect 
to it is visible prosecution of these individuals, particularly 
the pimps, where the evidence can be put together. I have seen 
very strong evidence that if you have strong, visible 
prosecution, that also changes behavior. You know, all of a 
sudden you see 3 days in the paper, whatever it may be.
    Are we doing--I mean, you can comment on those two things, 
that is, publishing the names of the perpetrators and the 
prosecution.
    But those kinds of things which actually shine a light on 
the problem and on those who really are the ones who are 
causing the problems, the pimps and the perpetrators, with the 
young people, I would be interested in your comments on that 
kind of an approach.
    In addition--do not get me wrong, I realize it cannot be 
alone, but in addition to other things that we are doing.
    Ms. Hotaling. I am a health educator, so I design health 
education programs, public health programs, and I really 
believe that there are number important aspects to the first-
offender prostitution program.
    One is that the men's personal life, their intimate 
relationships, are very fragile at best, at very best. The 
minute you get involved in prostitution, you lose the ability 
to create meaningful relationships, intimate relationships. You 
just lose it. And you do not develop that way.
    So publishing the names the first time, for the first 
arrest, I think has the capacity of tearing apart whatever 
personal relationships and intimate relationships they have. So 
our program is really about building on those relationships, 
giving them one chance and giving them an education and 
saying----
    Mr. Castle. All right, well, then what about the second or 
the third time? I mean, in other words, you do not bury 
murderers and rapists, I mean, the kind of rape you think about 
with violence, not child rape, I mean, we do not bury their 
names.
    So at what point----
    Ms. Hotaling. The second time, anything goes----
    Mr. Castle. So at some point----
    Ms. Hotaling. Hang them up and strip them, I do not care.
    Ms. Frundt. It is continuous, continuously putting their 
name in the paper.
    And as far as the pimps are feeling untouchable, because 
when the women are arrested, sometimes the pimps are right 
there. They yell, they scream at the police, and they are not 
arrested, saying that they do not have enough evidence, saying 
that they are pimps in this supposed situation.
    So we need to come down on that, on how the police receive 
that.
    Because of course the woman's not going to say in front, 
``Yes, that is my pimp, please arrest. Him.''
    So we need to also look at those laws for that.
    Mr. Castle. Exactly. And I think you said something in your 
answer that you just sort of said, which was ``continuous,'' 
and I think you are right about that. I do not think you can do 
this once and let it go for 5 years. This has to be something 
that recurs enough that it is going to get everybody's 
attention.
    Let me expand it to another area, and that is dedicated law 
enforcement.
    I am on the Education Committee, and we have all kinds of 
people playing all kinds of games with degrees and selling them 
and everything else. There used to be sort of a couple of guys 
in the FBI who really focused on this and really sort of kept 
it away because of their focus. Now there is really nobody 
doing that.
    I sort of sense the same problem with local police 
departments, maybe all the way through even the FBI with 
international trafficking or whatever it may be.
    Do we lack the law enforcement focus, shall we say, on 
this? Do you see that as you deal with all the women that you 
deal with, that they are dismissive of the claims or whatever 
it may be? Do we need to educate the law enforcement people and 
go to these chiefs and see if they will take three people and 
make sure that they are educated and prepared for this so they 
can help with that? Or is that already going on?
    Ms. Hotaling. No, you need specialized teams. We have a 
crimes-against-prostitutes team in San Francisco that focuses 
on this. I have a dedicated district attorney, and I have had 
one through three elected district attorneys, fortunately. And 
you really build on that when you have specialized individuals 
that are focused. And we have had extremely good prosecutions 
of pimps in San Francisco.
    And it is not always on pimping. You get them on--you know, 
we put a guy away for some of the longest time on clone phones, 
because we had teams that were educated on what they could get 
them on: Get them on guns, get them on silencers.
    They have things in their apartments, get immediate search 
warrants for their apartments. Because a lot of times the 
victims are going to go sideways. If you rely on the victims as 
the ones that make the case--and that is what the police say 
over and over again, ``Well, we do not have a victim so we do 
not have a case,'' you know. But they are not doing the work.
    And it is so much easier to arrest women--and I think for 
police officers, it is a lot more fun.
    Ms. Frundt. Also, quickly, I wanted to note that we also 
work with a prostitution unit. But, again, training is great; 
mind set is hard to change.
    Chairman Pryce. Well, the gentleman's time has expired.
    We have come to the end of our hearing.
    Before we dismiss the panel, the Chair notes that some 
members may have additional questions for this panel which they 
may wish to submit in writing. Without objection the hearing 
record will remain open for 30 days for members to submit 
written questions to these witnesses and to place their 
responses in the record.
    I cannot thank you enough, ladies, for being here.
    Mrs. Maloney. May I ask one last question?
    One of the things you said just keeps running in mind, when 
you called it ``discrimination.'' And we in Congress spend a 
great deal of time on discrimination, because we feel everyone 
should have a fair shot and a fair deal and be treated equally. 
I would say all Americans believe that.
    But you mentioned it several times, you said, ``This is 
discrimination against women, it is discrimination against 
women.'' Would you elaborate?
    Ms. Hotaling. Well, the laws are written in 
nondiscriminatory fashions, and if you analyze how the arrests 
are going throughout the country, you will find that around 98 
to 100 percent of the arrests on prostitution are against women 
and children, that the failed policies that we have applied 
towards women are now being applied towards children.
    So just the arresting of women has now become the standard 
for children. And to get--San Francisco is one of the I think 
very good examples where our arrests, since we started the 
first-offender prostitution program, has always been more 
arrests of men than women. And the women, if they are arrested, 
are sent to diversion programs and funded by the men.
    So they get services. Nobody clogs--they do not clog up the 
court system; they get appropriate services. The men pay for 
the services, so it is a restorative justice program. And I 
think that that is really important.
    Discrimination, the way that I frame it is that it is--
being a police officer is a great job if you can get it. You 
get to wear a badge, carry a gun, go out solicit a woman, which 
means asking them for a sex act, very blatantly, and then you 
get to arrest her and you get to spend the time of charging 
her, and you usually do it on overtime. And so they are getting 
charged overtime for this.
    But to get them to arrest men, they believe that the men--
and I have heard this from some of the experts that DOJ is 
using now, ``Who are the men anyway? They are just kind of fuel 
the fire,'' or, ``You know, we are not going to waste our 
resources on them.'' So that really has to change.
    Chairman Pryce. Once again, thank you very, very much. We 
look forward to continue to work with your organizations and 
with you and with everyone else who is present and interested 
today.
    The committee thanks you all.
    Ms. Maloney and I thank you for your cooperation and your 
insights into putting this bill together. We look forward to 
introducing it very shortly.
    Ms. Hotaling. Thank you.
    Chairman Pryce. With that, we are adjourned.
    Ms. Frundt. Thank you so much.
    [Whereupon, at 12:27 p.m., the subcommittee was adjourned.]




                            A P P E N D I X



                             April 28, 2005


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
